WAIVER

Supreme Court of the United States

No. 19-666
Jenn-Ching Luo v. Lowe's Home Centers, LLC, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

EK There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Chris S. Ernest

 

XK lam a member of the Bar of the Supreme Court of the United States.

Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature tho, © pwn
Date: \Qecember 4

(Type or print) Name_Thomas_ Finarelli
XK] Mr. O Ms. O Mrs. O Miss

 

Firm, avin Cedrone Graver Boyd & DiSipio

 

Address e uit 0,
City & State Philadelphia, PA tip 19306
Phone (215) 627-0303 x7911

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Jenn-Ching Luo, Petitioner
David S. Cohen, Counsel for Lowe's Home Center
Timothy R. Chapin, Counsel for James R. Walters

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
